1196

filed
JAN 0 2 2020

In The

Supreme Court of the United States
WILLIAM JOHNSON,
Petitioner
v.
COUNTY OF PAULDING, GEORGIA; BOARD OF
COMMISSIONERS FOR PAULDING COUNTY;
PAULDING COUNTY SHERIFFS DEPARTMENT;
SHERIFF GARY GULLEDGE IN HIS OFFICIAL &
INDIVIDUAL CAPACITY OFFICER “AL”
GONZALEZ IN HIS OFFICIAL & INDIVIDUAL
CAPACITY; And MAJOR SHELIA CRATON IN
HER OFFICIAL & INDIVIDUAL CAPACITY,
Respondents
On Petition For Writ Of Certiorari to the United
States Court Of Appeals for the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

WILLIAM JOHNSON, Pro Se
4783 Burford Court
Acworth, Georgia 30102
(404)488-9168
billacerebecca@gmail.com

V
1

QUESTIONS PRESENTED FOR REVIEW
1. This question presented is whether a State’s
statute of limitations bridling the pursuit of
regress for Unconstitutional and illegal pre­
trial imprisonment commences 48 hours after
State imprisons a pre-trial detainee, or when
the State releases that pre-trail detainee from
jail. U.S.C.A. 4; 42 U.S.C.A. § 1983. Manuel v. City
of Joliet. 137 S.Ct. 911 (2017). Manuel v. City of
Joliet. Illinois. 903 F.3d 667 (2018). The Trial Court’s
and Appeals Court’s ruling as to such, herein, is in
sharp contrast with this Supreme Court’s precedent
and the Seventh Circuit’s precedent concerning such.
Manuel and Manuel, supra. Herein, the Eleventh
Circuit contends that the limitations clock in Georgia
is controlled by Georgia and starts ticking when
Georgia says it does (currently 48 hours after pre-trial
detention), while this Supreme Court and the Seventh
Circuit have previously ruled that the clock does not
start ticking until a detainee is released from jail and
free from the State’s restraint so that the detainee is
able and can sue his or her captors.
2.

The question presented is whether the
testimony within an affidavit of a verified
complaint supporting facts asserted in the
complaint should be considered as evidence to
defeat a motion for summary judgment.

3. This question presented is whether a county
sheriff and his jailors can share their State’s
cloak of Eleventh Amendment immunity for

V
11

blatant violations of the United States
Constitution as controlled by 42 U.S.C.A. § 1983.
4. This question presented is whether, in
current times of electronic filings and easy
access to Court Records, a Court/Judge can
refuse to take Judicial Notice of its/his own
Court records of a recent case over which the
same Judge recently presided to justify the
harsh dismissal of a poor pro se Plaintiffs Right
to Jury Trial.
5. This question presented is whether a Court
can demand highly strict adherence to rules and
Court procedure so as to harshly dismiss a
pauper pro se’s (with no formal law education)
complaint for minor deficiencies, rather than
first taking less extreme measures such as
requiring the pro se litigant to re-file the
pleadings to conform to the Court’s strict
compliance policy.

V

111

Proceedings Directly Related to the Case in
this Court
In the Federal District of Northern Georgia (Rome
Division), case #:18-cv-00136-HLM. captioned:
Johnson v. County of Paulding. Georgia et al.
1. Complaint with Jury Demand: Docket #1,
judgment entered on 10/31/2018;
2. First Motion to Dismiss with Brief in Support
filed by all Defendants: Docket #8, judgment
entered on 10/31/2018;
3. First Motion for Summary Judgment filed by
all Defendats: Docket # 9, judgment entered on
10/31/2018;
4. Response in Opposition to First Motion to
Dismiss: Docket #11, judgment entered on
10/31/2018;
5. Response in Opposition to First Motion for
Summary Judgment: Docket # 12, judgment
entered on 10/31/2018;
6. Response to Statement of Material Facts of
First Motion for Summary Judgment filed by
Plaintiff: Docket # 13, judgment entered on
10/31/2018;
7. Reply Brief to Response to First Motion to
Dismiss by all Defendants: Docket # 14,
judgment entered on 10/31/2018;
8. Reply Brief to Response to First Motion for
Summary Judgment: Docket # 15, judgment
entered on 10/31/2018;
9. Notice of Appeal: Docket # 20.
In the United States Court of Appeals for the
Eleventh Circuit, case # 18-14994 captioned:
William Johnson v. Paulding County, Georgia, et al.

V

IV

1. Appellant’s Brief docketed on 11/30/2018,
judgment rendered 7/12/2019;
2. Appellees’ Brief filed on 3/15/2019, judgment
rendered 7/12/2019;
3. Reply Brief filed by Appellant on 5/20/2019,
judgment rendered 7/12/2019;
4. Petition for Rehearing En Banc filed by
Appellant on 8/2/2019, judgment rendered
10/4/2019.

V
V

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW

1

Proceedings Directly Related to Case in this Court., iii
TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

3

JURISDICTION

4

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ......................

4

STATEMENT OF THE CASE

7

Proceedings Below

9

Facts of the Case...

10

REASONS FOR GRANTING THE PETITION ..... 15
1.
Whether a State’s statute of limitations
bridling the pursuit of regress for Unconstitutional
and illegal pre-trial imprisonment commences 48
hours after State imprisons a pre-trial detainee, or
when the State releases that pre-trail detainee from
jail
15
2.
Whether the testimony within an affidavit of a
verified complaint supporting facts asserted in the
complaint should be considered as evidence to defeat
a motion for summary judgment.
22

y

VI

Whether a county sheriff and his jailors can
share their State’s cloak of Eleventh Amendment
immunity for blatant violations of the United States
Constitution as controlled by 42 U.S.C.A. § 1983....23
3.

4.
Whether, in current times of electronic filings
and easy access to Court Records, a Court/Judge can
refuse to take Judicial Notice of its/his own Court
records of a recent case over which the same Judge
recently presided to justify the harsh dismissal of a
pro se Plaintiffs Right to Jury Trial...................... 27
5.
Whether a Court can demand highly strict
adherence to rules and Court procedure so as to
harshly dismiss a pauper pro se’s (with no formal law
education) complaint for minor deficiencies, rather
than first taking less extreme measures such as
requiring the pro se litigant to re-file the pleadings to
conform to the Court’s strict compliance policy
30
CONCLUSION

33

APPENDIX A: District Trial Court’s Ruling on
Motion to Dismiss
(10/31/2018) ............................................................

la

APPENDIX B: District Trial Court’s Ruling on
Motion for Summary Judgment
(10/31/2018) ............................................................ 14a
APPENDIX C: Order of the 11th Circuit Court of
Appeals
(7/12/2019) .............................................................. 31a
APPENDIX D: Order of the 11th Circuit Court of
Appeals
(10/4/2019) .............................................................. 38a

V
Vll

TABLE OF AUTHORITIES

Cases

Page(s)

Brown v. lohnson. 387 F.3d 1344.1350 fll th Cir.2004).
21
Cobb v. Fla.. 293 F. App’x 708 filth Cir. 20081............... 21
Gerstein vs. Pugh. 420 U.S. 103 [95 S.Ct. 854.43 L.Ed.2d
54] (1975)
5, 25
Heck v. Humphrey. 512 U.S. 477.114 S.Ct. 2364 (1994)
........................................................................... 9, 17, 19, 21
Howlett By and Through Howlett v. Rose. 496 U.S. 356.110
S. Ct. 2430.110 L. Ed. 2d 332. 60 Ed. Law Rep. 358 f19901
.........................................................................................5, 25
Hughes v. Lott. 350 F.3d 1157.1160 filth Cir.2003) ...^O
Lambert v McFarland. 612 F.Supp. 1252. United
States District Court, N.D. Georgia. Atlanta Division
(1985)
5, 25
Manuel v. City of loliet. 137 S.Ct. 911 (2017) ...i. 4, 15, 16,
20, 23, 24
Manuel v. City of loliet. Illinois. 903 F.3d 667 (2018)
.......................................................... i, 4,15, 16, 20, 23, 24
McDonough Const. Co. v. McLendon Elec. Co.. 242
Ga. 510. 250 S.E.2d 424 (1978)

23, 28, 31

Monroe v. Pape. 365 U.S. 167. 81 S. Ct. 473. 5 L. Ed. 2d 492
(1,9,6.13.
5, 6, 25, 26

V

Vlll

Serino v. Hensley. 735 F.3d 588. 593 (7th Cir. 20131.....16
Moss v. City of Atlanta Fire Dep't. Civil Action File No.
1:14-CV-014-WSD-AIB. 2016 WL 5539682. at *4 fN.D. Ga.
Apr. 26.20161
32

Constitutional Authorities and Statutes

Pages

28 U.S. Code § 1254....

4

28 U.S.C. § 1915A(b)(l)

21

42 U.S.C.A. § 1983 ..i, ii, 4, 5, 6, 15, 19, 20,22, 24, 25, 26
Article 1, § 1, f I- Life, liberty, and property: Constitution
of the State of Georgia.
7, 27, 31
Article 1, § 1, If II- Constitution of the State of Georgia.... 7,
27, 32
Article 1, § 1, If XI- Right to Trial by Jury: Constitution of
the State of Georgia,
7, 27, 32
Article 1 § 1, If XII- Right to the Courts: Constitution of the
State of Georgia
7, 27, 32
Federal Rule of Civil Procedure 8(e) CONSTRUING
PLEADINGS.
6, 26, 31
O.C.G.A. 9-11-8 (f)

6, 23, 28

O.C.G.A. § 17-4-62

5, 25

U.S.C.A. 1

8

U.S.C.A. 4

i, 4, 8, 15, 22, 23, 24

U.S.C.A. 5

5, 6, 8, 25, 26, 31

IX

U.S.C.A. 6

8

U.S.C.A. 7,

6, 8, 26, 31

U.S.C.A. 8,

9

U.S.C.A. 14,

5, 6, 8, 25, 26, 31

U.S. Supreme Court Rules 10(a)

4

U.S. Supreme Court Rules 10(c)

4

V
1
PETITION FOR A WRIT OF CERTIORARI
William Johnson respectfully submits this Petition
for a Writ of Certiorari before the Honorable Supreme
Court of the United States of America. Petitioner has not
proceeded pro se herein out of disrespect for the Law or
disrespect for those well-educated and experienced in the
Law. He does so out of necessity as he cannot afford the
services of a lawyer. Petitioner prays that this Honorable
Court will take into consideration that Petitioner cannot
afford an attorney and has no formal education in law so
as to allow him to comply perfectly will all the rules and
customs of this Court. So very most often is the plight of
the poor and uneducated- chained to a system of laws
designed to ultimately protect the wealthy and the
aristocracy. The Rights of multitudes of individuals are
oppressed simply because they are poor and cannot afford
a professional attorney, or because they are uneducated in
Court procedure and Rules.
Petitioner further prays that this Court is able to
understand how his Civil Liberties were violated so as to
deliver Justice above and beyond Respondents' assertions
that Petitioner’s claims for Respondents’ violations of his
Civil Liberties should be dismissed out of respect for a
strict compliance with Court Rules, Procedure, and
Courtesies, which Respondents just like these customarily
abuse to seek fortification and privilege from merit-based
confrontation. As a pauper pro se (non-attorney) litigant
cannot fairly be expected to stand "toe-to-toe” against high
paid lawyers of an oppressive government entity with
unlimited coffers and layers of bureaucracy and laws
protecting its immunity, Petitioner prays that this
Honorable Court will allow him a little more latitude than
the lower Courts to present his case.
William was illegally arrested, without probable
cause and without warrant being issued, and illegally

2
imprisoned pre-trial for over six months on a
misdemeanor charge that would later be dismissed.
Excessive bail was set that William could not afford.
Despite William repeatedly demanding a probable
cause hearing, the Sheriffs jailors never (approximately
six and a half months in jail) presented him before a
judicial officer to verify probable cause for his arrest or
certify his pre-trial detention (essentially pre-trial
punishment without Due Process and Jury Trial
Demanded). William's captors repeatedly insisted that a
Uniform Traffic Citation written by their arresting officer
was all that was necessary to keep him in jail until his trial.
Additionally, despite being obstructed from doing
so by the Sheriffs jailors, William was able to successfully
file a Petition for Federal Habeas Corpus in the Rome
Division of the Federal Northern District of Georgia (same
presiding Judge as Judge that dismissed his Complaint in
the Trial Court concerning his claims referenced herein).
Upon the Federal District Court requiring the jail to answer
William’s Habeas Corpus Petition, the jail finally released
him.
Because
of
Respondents’
intentional
unconstitutional actions, William, a single Dad, lost his
business, lost his state contractor’s license, lost nearly
everything he owned, could not care for his daughter
who had to support herself, and missed his daughter's
high school graduation while imprisoned for over six
months pre-trial. Because William had been made a
pauper due to the Respondents' actions, he was never able
afford an attorney to represent him, and after almost two
years from being released from jail and nearly one year
after his misdemeanor charge was dismissed, he was
finally able to salvage enough time and save enough money
to file suit pro se against the Respondent Defendants.
The United States' Constitution was written to
protect its citizens against the tyranny of government

3
entities with police states and unlimited coffers. It
provides for a means by which the Judicial Branch is able
to protect individuals from the Legislatures’ and
Executors' oppression of Civil Liberties.
Constitutional Law is very clear that police do not
have the authority to keep individuals jailed more than 48
hours without Judicial endorsement
Keeping an
individual in jail pre-trial for more than six months
(whether lawful or not) on a misdemeanor charge is an
excessive abuse of power and should never be allowed, as
it destroys an individual's livelihood and life (especially
when individual is never found guilty of the
misdemeanor).
As the Federal District of Northern Georgia and this
Court’s Eleventh Circuit of Appeals endorses such
behavior, in sharp contrast to the Seventh Circuit and this
Honorable Court's rulings, this case at bar is of such
importance so as to justify this Honorable Court’s
intervention to ensure uniformity in the Law among all
Federal Judicial Districts, uphold this Court's
precedents, and protect Civil Liberties that require
police to deliver all individuals before a judicial officer
to authorize pre-trial imprisonment beyond 48 hours.
OPINIONS BELOW
The Federal District of Northern Georgia (Rome
Division), case #:18-cv-00136-HLM, entered judgment
granting Respondents' First Motion to Dismiss on October
31st, 2018. (Pet.App. la). The Federal District of Northern
Georgia (Rome Division), case #:18-cv-00136-HLM,
entered judgment granting Respondents’ First Motion for
Summary Judgment and dismissing Petitioner’s Complaint
on October 31st, 2018. (PetApp. 14a). The Eleventh
Circuit Court of Appeals denied Petitioner's Appeal
(PetApp. 31a), case # 18-14994, on July 12th, 2019 and

4
denied Petitioner’s Petition for Rehearing En Banc on
October 4th, 2019. (Pet.App. 38a).
JURISDICTION
The Eleventh Circuit Court of Appeals entered
judgment dismissing Petitioner’s Appeal on July 12th,
2019. Petitioner’s timely filed Petition for Rehearing En
Banc was denied on October 4th, 2019. Time for filing a
petition herein expires after January 2nd, 2020.
This Court has jurisdiction under 28 U.S. Code §
1254 and U.S. Supreme Court Rules 10(a) and 10(c). More
particularly, herein, the Eleventh Circuit Court of Appeals
has entered decisions in conflict with important Federal
decisions of and precedents set by the Seventh Circuit
Court of Appeals and this Supreme Court, which demands
this Court's intervention.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
While state law supplies limitations period for
pretrial detainees’ § 1983 actions alleging that unlawful
pretrial detention beyond start of legal process violates the
Fourth Amendment, Federal Law defines when the claim
accrues for limitations purposes. U.S. Const Amend. 4; 42
U.S.C.A. § 1983. Manuel v. City of loliet. 137 S.Ct. 911
(2017). Manuel v. City of loliet. Illinois. 903 F.3d 667
(2018).
In every case of an arrest without a warrant, the
person arresting shall, without delay, convey the offender
before the most convenient judicial officer authorized to
receive an affidavit and issue a warrant.... No such
imprisonment shall be legal beyond a reasonable time
allowed for this purpose; and any person who is not

5
brought before such judicial officer within 48 hours of
arrest shall be released. O.C.G.A. § 17-4-62.
In additional to the discrete state function
previously mentioned, this case at bar presents issues that
are not consistent with Federal Constitutional character to
extend sovereign immunity. An individual who is arrested
without a warrant is entitled to have a judicial officer make
a determination of probable cause within a prompt period
after the arrest; if prompt judicial determination of
probable cause is not made, then an extended deprivation
of liberty following a warrantless arrest constitutes
deprivation of liberty without due process of law. U.S.C.A.
5,14. Please see Lambert v McFarland. 612 F.Supp. 1252,
United States District Court, N.D. Georgia, Atlanta Division
(1985) citing Gerstein vs. Pugh. 420 U.S. 103 [95 S.Ct. 854,
43 L.Ed.2d 54] (1975).
Government bodies which are not protected by
Eleventh Amendment immunity may be sued under § 1983
in state court, even if state laws would purport to extend
sovereign immunity to all government bodies within the
state. Howlett Bv and Through Howlett v. Rose. 496 U.S.
356,110 S. Ct. 2430,110 L. Ed. 2d 332,60 Ed. Law Rep. 358
(1990).
The Federal Civil Rights Acts, 42 U.S.C.A. §§ 19811988, provide the statutory basis for federal police abuse
actions against state or local police officers. Of these
statutes, § 1983 (the Civil Rights Act of 1871) is the most
frequently invoked, particularly since the decision in
Monroe v. Pape. 365 U.S. 167, 81 S. Ct. 473,5 L. Ed. 2d 492
(1961).
42 U.S.C.A. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any state or
territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation of

6
any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper
proceeding for redress. In Monroe, the Court identified
three main purposes envisioned by the Congress that
enacted the statute: (1) "to override certain kinds of state
laws"; (2) to provide "a remedy where state law was
inadequate"; and [3) to provide "a federal remedy where
the state remedy, though adequate in theory, was not
available in practice." Monroe. 365 U.S. at 172-83.
The Supreme Court has set forth an expansive
construction of § 1983, emphasizing the intention of
Congress to create a broad federal remedy for violations of
constitutional rights. The Court held that action "under
color of state law was not confined to action authorized
by state law, but could include conduct of government
officials that was contrary to state law. Furthermore, the
Court made clear that the availability of a state remedy did
not affect a plaintiffs right to seek redress in the first
instance in federal court under § 1983. Monroe. 365 U.S.
at 180.
No person shall "be deprived of life, liberty, or
property, without due process of law". U.S.C.A. 5. In Suits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved. U.S.C.A 7. No state shall "deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws". U.S.C.A. 14. Pleadings must be
construed so as to do justice. Federal Rule of Civil
Procedure 8(e) CONSTRUING PLEADINGS.
Due Process afforded by Georgia Statutory and
Constitutional Law involved herein is enumerated as
follows in the next two paragraphs. All pleadings shall be
so construed as to do substantial justice. O.C.G.A. 9-11-8
(f) Construction of pleadings. "No person shall be deprived

7
of life, liberty, or property except by due process of law.”
Article 1, § 1, f I- Life, liberty, and property: Constitution
of the State of Georgia. "Protection to person and property
is the paramount duty of government and shall be
impartial and complete. No person shall be denied the
equal protection of the laws." Article 1, § 1,
IIConstitution of the State of Georgia.
"The right to trial by jury shall remain inviolate".
Article 1, § 1, f XI- Right to Trial by Jury: Constitution of
the State of Georgia. "No person shall be deprived of the
right to prosecute or defend, either in person or by an
attorney, that person's own cause in any of the courts of
this state." Article 1 § 1, f XII- Right to the Courts:
Constitution of the State of Georgia.
Plaintiff has been denied his Constitutional Rights
guaranteed according to the following Amendments to the
United States Constitution: first amendment [freedom to
petition the government for redress), fourth amendment
[freedom from unreasonable searches and seizures), fifth
amendment (right to due process, from self-incrimination,
and from double jeopardy), sixth amendment (right to
confront accusers and obtain witnesses), eighth
amendment (right not to be subjected to cruel and unusual
punishment or have affordable bail set), and fourteenth
amendment (right to due process and right to life, liberty
and property).
Plaintiff has been illegally arrested without
probable cause and without warrant issued, jailed pre-trial
for over six months on a misdemeanor charge (a charge
that would later be dismissed), denied his 4th Amendment
Right to be taken before a Judge who would verify
probable cause for arrest for his arrest and determine
whether pre-trial detention for his misdemeanor charge
was justified, and charged for a misdemeanor he never
committed (in violation of both State and Federal Law).

8
STATEMENT OF THE CASE
The facts and presentation of this case will show
that Petitioner’s over six-month pre-trial detention, for a
single misdemeanor charge that was later dismissed, was
unconstitutional (pre-trial punishment). Compliance with
Constitutional, Federal, and State Law requiring for
Petitioner to be presented before a Judicial Officer for
verification of probable cause and the necessity of pre-trial
detention (Judicial oversight) would have prevented this.
Essentially, Petitioner was:
1. denied his Right to petition for a governmental
redress of his grievances (denial of judicial
hearing to determine validity of pre-trial
detention); U.S.C.A. 1;
2. denied his Right to be free from unreasonable
search and seizure (arrest and six-month pre­
trial detention without warrant or judicial
sanction); U.S.C.A. 4;
3. deprived of life, liberty, or property, without
due process of law (six-month pre-trial
detention/pre-trial punishment with no Due
Process for Jury Trial and State/Federal Laws
guaranteeing Judicial approval of such; loss of
life, livelihood, liberty and property while in
jail); U.S.C.A. 5 and 14;
4. deprived of the trial process Constitutionally
guaranteed prior to six-month pre-trial
imprisonment; U.S.C.A. 6;
5. deprived of Right to Jury Trial for controversy
exceeding twenty dollars in values (dismissal of
Petitioner’s claims herein); U.S.C.A. 7;
6. deprived of Right against excessive bail
(Petitioner kept in jail pre-trial for

9
misdemeanor charge for more than six months
where he could not afford the bail]; U.S.C.A. 8;
Proceedings Below
Petitioner filed his Complaint in the Northern
District of Georgia (Rome Division] on June 5, 2018. (case
#18-cv-00136-HLM, Docket 1]. On September 20th, 2018,
Respondents filed their First Motions to Dismiss and for
Summary Judgment. (Dockets 8 and 9). On October 31st,
2018, the Trial Court dismissed all of Petitioner's claims
asserting that Petitioner (Dockets 16,17,18]:
1. did not file the claims within the applicable Statute
of Limitations,
2. did not present a single piece of evidence before the
Court to withstand summary judgment (both the
Trial Court and Appeals failed to acknowledge that
Petitioner filed a verified complaint with affidavit of
certified testimony supporting the facts named in
his complaint, along with many other pieces of
evidence presented in additional pleadings),
3. could not pierce Respondents’ cloak of Eleventh
Amendment immunity,
4. was barred by the Heck Doctrine from pursuing his
claims,
5. failed to follow Court Procedures and Rules,
6. and could not expect the Court to take judicial
notice of its own Court records.
On November 30th, 2018, Petitioner filed Notice of
Appeal (Docket 20).
Petitioner's Appeal was docketed in the Eleventh
Circuit Court of Appeals on November, 30th, 2018, case #
18-14994. Respondents’Appellee Brief was filed on March

10
15th, 2019. Petitioner filed his Reply Brief on May 22nd,
2019. The Appeals Court rubber-stamped and affirmed
the Trial Court’s decision on July 12th, 2019. Petitioner’s
Petition for Rehearing En Banc was denied on October 4th,
2019.
Facts of the Case
Record citations are included in PetitionerAppellant’s Appendix filed in with Appeal Court on March
6th, 2019, case # 18-14994. The record citations will be
referenced, for example, as follows: "R.1, AP 7" would
represent page 7 of the Appellant’s Appendix (APAppellant's Appendix page number] as scanned by this
Appeals Court’s Clerk into its electronic record. "R.1"
represents Document 1 in the Trial Court's docket as listed
and identified in the index of Appellant's Appendix. So,
"R.1, AP 7" is page 1 of the Plaintiff-Appellant's Complaint
in the District Court, which is listed in the index of
Appellant's Appendix as document R.1 and found on page
7 of Appellant's Appendix as scanned by this Appeal Court
Clerk's.
Plaintiff states that Sergeant Gonzalez of the
Paulding County Sheriff’s Office illegally arrested him on
January 28th, 2016 and charged him with DUI, said DUI
charge being dismissed on June 6th, 2017. R.1, AP 13-14,
24; R.12, AP 72. (Please see Exhibit "B", R.1, AP 24.)
Plaintiff was never given a copy of the Uniform Traffic
Citation (UTCJ for the illegal arrest until May 24th, 2016
after having obtained an Order from a Federal Judge of the
Trial/Habeas Court commanding Defendants to give him
that (below]. R.12, AP 72.
The next day, following the illegal arrest, a judge
issued an invalid and unconstitutional warrant which was
not based on any evidence or on an affidavit of any
individual having personal knowledge of anything

V

11
supporting probable cause for an arrest of Plaintiff.
Appellees' Exhibit 1. The probation warrant was merely a
warrant piggy-backed upon the illegal arrest made by
Sergeant Gonzalez, probable cause for said arrest never
having been verified by a judicial officer. Gonzalez's arrest
was secured by a UTC, merely a citation handwritten by
the police officer, not a warrant. There was never a
"probable cause determination" made by a judicial officer.
The probation warrant was simply based on the
testimony of Plaintiffs probation officer that Plaintiff was
arrested. No evidence or basis of "probable cause" to
support a warrant for the arrest of Plaintiff was presented
before the probation judge. Nothing supporting "probable
cause" for Plaintiffs arrest or pre-trial detention was
documented within the “four corners" of the warrant
issued by the probation judge. R.12, AP 72-73.
Plaintiff was kept in jail for over 6 months solely on
the basis of a UTC, for which probable cause was never
determined by a judge. Please see affidavit, dated July 20th,
2016, of Defendant Major Shelia Craton (Plaintiffs Exhibit
"C", R.12, AP 91-92), the Jail Administrator of the Paulding
County Jail.
In her affidavit, under paragraph 6, Major Craton
States:

"On May 24,2016, and in response to
the May 19, 2016 order of the United States
Magistrate Judge, I delivered a copy of Mr.
Johnson's DUI citation to Mr. Johnson
because that DUI arrest is the sole basis for
Mr. Johnson's current detention in the
Paulding County Detention Center. Mr.
Johnson refused to accept the citation. I did
not provide Mr. Johnson with a copy of the
Spalding County probation warrant because
that warrant is not the basis for Mr.
Johnson’s current detention in the Paulding

12
County Detention Center. Had I understood
the Order to also require production of the
Spalding County probation violation
warrant, I would have provided a copy of it
to Mr. Johnson at that time." R.12, AP 91-92.
Please see the probation warrant, Appellees’
Exhibit 1. This document is nothing more than a
conclusory statement by Plaintiffs probation officer, Anita
Jones, that Plaintiff had committed a crime. Within the
"four corners” of the warrant is presented no testimony or
evidence whatsoever showing probable cause of a crime to
issue a warrant for arrest. R.12, AP 73.
Essentially, Plaintiff served time for a probation
revocation prior to being afforded the opportunity for a
probation revocation hearing (probable cause
determination) according to the Due Process of the Laws
of Georgia. Because of the actions/inactions of the
individual Defendants and other police Defendants herein
and because of excessive bail being set, Defendant was not
able to meet bail to be able to be released from the
Paulding County jail so that he could be afforded a
probation revocation hearing (probable cause
determination). Just prior to having to answer a Federal
Habeas Corpus Action in the Rome Federal Court (same as
Trial Court herein), on August 9th, 2016, the Paulding
County Jail released Plaintiff on a signature bond (no bail
amount required). R.12, AP 74.
Major Sheila Craton and employees of the Paulding
County Sheriff insisted that Plaintiff was being held under
the color of a Uniform Traffic Citation, Summons, and
Accusation of the Paulding County Sheriffs Department
(UTC). Please see Plaintiffs Exhibit "A". R.1, AP 23.
Plaintiff repeatedly insisted he could not be held more than
48 hours on merely a UTC and demanded that he be
presented a warrant authorizing his pre-trial detention or

13
afforded a probable cause hearing,
The Sheriffs
employees insisted that Plaintiff was being held on the UTC
and that he was not entitled to a probable cause
determination before a judicial officer or entitled to be
given a copy of any warrant. R.12, AP 74.
Petitioner humbly asks that the Court take judicial
notice of and review case # 4:16-cv-57-HLM, a Habeas
Corpus action filed by Plaintiff in the Rome District Court,
which presents plenty of evidence on record to withstand
these Defendant's first motion for summary judgment.
This whole case are pleadings, documented in the same
Trail Court herein, that were served upon the Respondents
alerting them to the facts that they were violating
Petitioner's Constitutional Rights.
Specifically, Plaintiff requests that the Court review,
in detail, his Brief in Support of Petition for Writ of Habeas
Corpus filed in said case in the Trial Court on August 1st,
2016 as document # 27. This document lists, in detail, the
Constitutional violations of the Defendants while they
imprisoned Plaintiff pre-trial for over six months (a
misdemeanor charge that would later be dismissed).
Additionally, Plaintiff relies on his RESPONSE TO
DEFENDANTS’ STATEMENT OF UNDISPUTED MATERIAL
FACTS filed in the District Court, along with his Complaint,
Brief in Support of this pleading, and other pleadings filed
herein. R.12, AP 75.
On January 28th, 2016, the night of the illegal arrest
for DUI, Petitioner passed the breath test on the machine
at the Paulding County Jail. Yet, Plaintiff was still charged
with DUI for allegedly refusing to also take a blood test
Because Plaintiff knew that he passed the breath test, he
made numerous requests to have a probable cause hearing
before a judge to view the police video showing where
Plaintiff was tested. All requests were denied. Despite
Plaintiff asserting his 6th Amendment Brady Rights to
exculpatory evidence and filing a Brady motion for such,

14
said police video Plaintiff requested was erased by the
Paulding County Sheriffs Department, which admitted
that it had done this. The Paulding County District
Attorney was in possession of the Brady Motion served by
Plaintiff nearly a month before the jail erased the
exculpatory video. R.12, AP 74-75.
Respondents made many inaccurate statements in
the Trial and Appeals Courts. Plaintiff was not driving
under the influence at the time he was arrested and never
alleged this. (This is a blatant lie.) That charge was
dismissed and is nothing more than an accusation. (Please
see Exhibit "B", R.1, AP 24.) (Petitioner’s head lights went
out on his truck. So, he parked the truck, and decided to
sleep until daylight the next morning. No police officer saw
Petitioner drive anywhere.)
One is presumed innocent until proven guilty
through Due Process of Law. This assertion by Appellees
is a belief, not a fact, which is exactly why Appellant was
entitled to probable cause verification by a judicial officer
independent of an executive actor.
Appellant was never convicted of DUI! In fact, the
charge was dismissed. Appellant's probation officer
alleged that Appellant violated a condition of his
probation, namely "Do not violate the laws of any
governmental unit." Appellant was never afforded a
probable cause hearing/determination of such by an
independent judicial officer. Thus, he sat in the Paulding
County jail for over six months because he could not afford
to post bond for the DUI "charge".
By the time Petitioner was able to attend a
probation revocation hearing (probable cause
verification), he had served the maximum amount of jail
time that could have been awarded for any alleged
probation violation (his probation being revoked in fulleleven months with a 2 for 1 by the jail, making his
maximum sentence less than 6 months). Thus, due to the

15
Respondents’ violations of Petitioner’s Rights as stipulated
herein, the Respondents quashed any opportunity
Petitioner could have had to prove there was no probable
cause to support a probation violation. Therefore, any
Right Petitioner had to contest the imprisonment for an
alleged probation violation was rendered moot due to the
actions of the Respondents. Essentially, Petitioner spent
over six months in jail (a misdemeanor charge) pretrial to
adjudication of the DUI charge and alleged probation
violation.
Appellees' footnote 1 on page 3 of its Appellees’
Brief is also a lie. Plaintiff did dispute many facts alleged
by Appellees' statement of facts in the Trial Court. Please
see Appellant’s Response to Defendants' Statement of
Undisputed Material Facts in the Trial Court. R.13, AP 9395.

REASONS FOR GRANTING THE PETITION
1. Whether a State’s statute of limitations
bridling the pursuit of regress for
unconstitutional and illegal pre-trial
imprisonment commences 48 hours after
State imprisons a pre-trial detainee, or
when the State releases that pre-trail
detainee from jail. U.S. Const. Amend. 4; 42
U.S.C.A. § 1983. Manuel v. City of Joliet, 137
S.Ct. 911 (2017). Manuel v. City of Joliet,
Illinois, 903 F.3d 667 (2018). The Trial Court’s
and Appeals Court’s ruling as to such, herein,
is in sharp contrast with this Supreme Court’s
precedent and the Seventh Circuit’s precedent
concerning such. Manuel and Manuel, supra.
Herein, the Eleventh Circuit contends that the

16
limitations clock in Georgia is controlled by
Georgia and starts ticking when Georgia says
it does (currently 48 hours after pre-trial
detention), while this Supreme Court and the
Seventh Circuit have previously ruled that the
clock does not start ticking until a detainee is
released from jail and free from the State’s
restraint so that the detainee is able to and
can sue his or her captors.
Respondents’, the Trial Court's, and the Appeal
Court's portrayal of Manuel v. City of Joliet. Illinois. 903
F.3d 667 (2018), is wrong. Manuel, supra is specifically
quoted:
"When a wrong is ongoing rather
than discrete, the period of limitations does
not commence until the wrong ends... Notice
that we speak of a continuing wrong, not of
continuing harm; once the wrong ends, the
claim accrues even if that wrong has caused
a lingering injury... The problem is the
wrongful custody. "[T]here is no such thing
as a constitutional right not to be prosecuted
without probable cause.” Serino v. Hensley,
735 F.3d 588, 593 (7th Cir. 2013). But there
is a constitutional right not to be held in
custody without probable cause. Because
the wrong is the detention rather than the
existence of criminal charges, the period of
limitations also should depend on the dates
of the detention.
The wrong of detention without
probable cause continues for the duration of
the detention. That’s the principal reason
why the claim accrues when the detention

V
17
ends. (The parties have debated whether a
need to prove malice affects the claim's
accrual. But after the Supreme Court's
decision this is a plain-vanilla Fourth
Amendment claim, and analysis under that
provision is objective.)"
Plaintiff was kept in jail pre-trial for his
misdemeanor DUI "accusation" for over six months with
no probable cause determination ever being made by the
Courts. Plaintiff was illegally arrested on January 28th,
2016. No judicial probable cause determination was ever
made, despite Plaintiffs numerous requests for such, his
numerous filings in Probate and Superior Courts of
Paulding County, and numerous filings for Habeas Corpus
relief in the same Federal Court where the Complaint was
filed herein. Plaintiff was not released from jail until
August 9th, 2016. Plaintiffs DUI charge was dismissed on
June 6th, 2017. Plaintiff filed this suit on June 5th, 2018.
Respondents "cannot have their cake and eat it
also." On the one hand, they claim that the Heck Doctrine
bars Petitioner from filing his claims. Heck v. Humphrey.
512 U.S. 477, 114 S.Ct. 2364 (1994). On the other hand,
they allow for no tolling for the statute of limitations while
Petitioner had to wait for his unfounded DUI charge to be
dismissed. Plaintiffs DUI charge was dismissed on June
6th, 2017. Plaintiff filed this suit on June 5th, 2018, which is
less than one year after his DUI charge was dismissed.
Petitioner's probation officer alleged that he
committed a crime simply because he was arrested. The
alleged probation violation is for committing a crime,
which Petitioner never did because the charge was finally
dismissed much later. Please see the probation accusation
that alleges Petitioner violated a condition of his
probation, namely "Do not violate the laws of any
governmental unit"

18
The Sheriff Respondents (Paulding County Sheriff
Department, Sheriff Gary Gulledge, Officer A1 Gonzalez,
Major Shelia Craton) held Petitioner in jail for six and half
months pre-trial. Despite his many requests for a probable
cause hearing, Petitioner was never taken before a Judicial
Officer for probable cause verification and Judicial
authorization of his pre-trial detention.
In the meantime, despite Petitioner having filed
Brady Motions in the Paulding County Probate Court and
in the Paulding County Superior Court, exculpatory
evidence disproving any possible probable cause for
Petitioner’s arrest was destroyed.
The Sheriff
Respondents destroyed video evidence of Petitioner
taking the breath test at the Sheriffs Department one
month after Petitioner filed his Brady motion and motion
for probable cause hearing in the Superior Court of
Paulding County. Petitioner passed the breath test. This
exculpatory evidence would have shown a Judicial Officer
that there was no probable cause for Petitioner’s arrest or
pre-trial detention.
Respondents are "missing the boat". There are two
separate claims, one for illegal arrest and one for illegal
pre-trial detention. Because Petitioner was never taken
before a judicial officer for probable cause verification for
the entire time he was held pre-trial in jail, he could not be
released from the Paulding County Jail so that he could be
transported to Spalding County for a probation revocation
hearing (judicial verification of probable cause). The
probation warrant piggy-backed the DUI arrest. Within
the "four corners" of the probation warrant, no evidence is
named to support probable cause for a DUI arrest. This
information must be recorded within the warrant, or the
warrant is invalid on its own face. No probable cause was
ever verified.
The ongoing "wrong" was the fact that Respondents
continued to deny Petitioner his 4th Amendment Right to

19
be presented before a judicial officer for probable cause
verification. Petitioner was kept in pre-trial detention so
long that it rendered "moot" any opportunity Petitioner
could have had to make any meaningful rebuttal to the
accusation of the probation violation. By the time
Petitioner was released from pre-trial detention, his
probation had already run its course in the form of full
revocation.
Petitioner demonstrated repeatedly in the Trial and
Appeals Court that his DU1 charge was dismissed. The
underlying accusation for the alleged probation violation
was that Petitioner allegedly committed the crime of DUI,
which he did not. The DUI charge was finally dismissed
nearly one year after Petitioner's probation sentence had
run its course.
Quoting Heck, supra: "Thus when a state prisoner
seeks damage in a § 1983 suit, the district court must
consider whether a judgement in favor of the plaintiff
would necessarily imply the invalidity of his conviction or
sentence; if it would, the complaint must be dismissed
unless the plaintiff can demonstrate that the conviction or
sentence has already be invalidated.”
The single alleged crime for both offenses (an actual
crime and a probation violation for committing a crime)
was invalidated on June 6th, 2017, nearly one year prior to
Petitioner filing his Complaint on June 5th, 2017.
Therefore, since the accusation for committing DUI was
formally dismissed, according to Heck, supra, this
Petitioner should be permitted to proceed with his § 1983
claims herein. Petitioner was never convicted of any
crime. So, there was no verdict to overturn. Additionally,
the Heck doctrine only precludes false arrest claims for
convictions of crimes related to the false arrest. It sets no
precedent for an illegal pre-trial detention claim,
especially when such results in no conviction whatsoever.

20
According to Manuel, supra, the statute of
limitations for Plaintiffs illegal pre-trial detention claims
expired two years after he was released from pre-trial
custody, which was on August 9th, 2018, over two months
after he filed this suit on June 5th, 2018. Hence, Plaintiffs
claims herein are not time-barred.
Appellees contention that Appellant pleaded guilty
to DUI is false. Please see Exhibit "B". R.1, AP 24. A
probation violation is not equivalent to conviction of a
separate crime. Probation revocation hearings are
summary in nature, and a defendant is not afforded the
same rights he has at a genuine trial for a crime.
Additionally, probation revocation hearings utilize the
preponderance of evidence standard, not "beyond
reasonable doubt standard".
Furthermore, Appellant was never afforded a
probable cause determination in the probation
adjudication either. The Judge simply, without observing
any evidence supporting probable cause for an arrest,
issued a warrant based on "faxed" testimony from the
probation officer that Appellant had been arrested. Often,
probable cause and strict adherence to the 4th Amendment
is not required when arresting for a probation violation in
Georgia.
As already explained, Appellant was kept in jail
pretrial for over six months, which was longer than any jail
sentence that could have been imposed by the probation
violation. In other words, Appellant’s right to contest his
probable cause for arrest and probation violation
accusation Jin Spalding County, GA) was rendered moot by
the fact that he spent the maximum amount of time in jail
for the alleged probation violation prior to having a chance
to contest it Worth noting is the fact that Appellant was
not allowed to consult with an attorney when his
probation officer demanded that he sign the "paperwork"

21
if he wanted to be released from jail (having already served
the maximum jail time for a full revocation).
The Heck precedent is inapplicable to this case at
bar. Appellant's claim herein is not a collateral attack on
his probation revocation conviction.
Appellant is
contesting the fact that he was not afforded the right to
judicial determination of probable cause for his arrest for
DUI, not a probation violation. The Respondents’ arrest
and pretrial detention of Appellant at the Paulding County
Jail was for the DUI adjudication in Paulding County, as
attested to above by Appellee Craton, not for a probation
violation. This pre-trial detention had to be substantiated
by probable cause that Appellant was actually driving
under the influence of alcohol. (No police officer ever saw
Petitioner driving.) This was never verified by a judicial
officer. The probation warrant showed that Appellant was
arrested, but it does not verify probable cause supporting
that arrest or warranting pretrial detention for the DUI
charge.
Consequently, Appellant was detained in jail
pretrial for six months where he could not timely contest
his probation accusation, rendering his ability to do so
moot since he had already been incarcerated for the
maximum amount of punishment he could have received
for a probation revocation. Appellee Craton admitted
under oath, on July 20th, 2016, shortly before Appellant
was released from the Paulding County Jail, that: "I did not
provide Mr. Johnson with a copy of the Spalding County
probation warrant because that warrant is not the basis
for Mr. Johnson’s current detention in the Paulding County
Detention Center." R.12, AP 73.
Appellees' application of Cobb v. Fla., 293 F. App'x
708 (11th Cir. 2008) is flawed. Cobb, supra, quoted:
"In reviewing the dismissal of a complaint under the 28
U.S.C. § 1915A(b)(l), this court accepts allegations in the
complaint as true, and pro se pleadings are liberally

22
construed. Brown v. Johnson, 387 F.3d 1344,1350 (11th
Cir.2004)... [A] plaintiff may proceed under § 1983 when
"the plaintiffs action, even if successful, will not
demonstrate the invalidity of any outstanding criminal
judgment against the plaintiff ... in the absence of some
other bar to the suit" Id. at 487,114 S.Ct at 2372-73; see
Hughes v. Lott, 350 F.3d 1157, 1160 (11th Cir.2003)
(explaining that "an illegal search or arrest may be
followed by a valid conviction, [and therefore] a successful
§ 1983 action for Fourth Amendment search and seizure
violations does not necessarily imply the invalidity of a
conviction."]."
The Defendants and Trial Court attempt to put "the
cart before the horse" with their McLaughlin analysis. The
probation warrant was based on the illegal arrest for DUI.
There was no determination of probable cause by a judicial
officer. This was simply a warrant application faxed from
Plaintiffs probation officer to a Judge for his signature.
The probation officer had no knowledge and witnessed
nothing concerning the alleged DUI incident She simply
received notification of Plaintiffs arrest and applied for a
warrant.
Probable cause for a DUI is not documented within
the "four corners" of the warrant application. This warrant
application was in no way a "judicial determination of
probable cause”. Additionally, a basic 4th Amendment
analysis renders the probation invalid on its face. It makes
no mention whatsoever of any evidence, within its "four
corners," that would support probable cause for a DUI
arrest A police officer can arrest anyone. However, to
obtain a warrant supporting his arrest, he must present
evidence of probable cause for an arrest In this case at bar
no one has ever presented evidence before a Judge to
support probable cause for this Defendant's arrest or pre­
trial detention.

23
2. Whether the testimony within an affidavit of a
verified complaint supporting facts asserted in
the complaint should be considered as evidence
to defeat a motion for summary judgment
The facts stated in Petitioner's Complaint were verified
in his attached affidavit and should have been counted as
evidence to withstand summaiy judgment by the Trial
Judge.
3. Whether a county sheriff and his jailors can
share their State's cloak of Eleventh
Amendment immunity for blatant violations of
the United States Constitution as controlled by
42 U.S.C.A. § 1983.
Petitioner states in his Appeal Record that his
argument herein is essentially the same argument he made
in the District Court, which Respondents responded
thereto in the District Court R.11,AP 60-64. As Petitioner
argued in the District Court, Georgia Law is explicit as to
what the Sheriff and his employees are supposed to do
with respect as to bringing detainees before a judicial
officer to verify probable cause for an arrest and continued
detention.
In every case of an arrest without a warrant, the
person arresting shall, without delay, convey the offender
before the most convenient judicial officer authorized to
receive an affidavit and issue a warrant... No such
imprisonment shall be legal beyond a reasonable time
allowed for this purpose; and any person who is not
brought before such judicial officer within 48 hours of
arrest shall be released. O.C.G.A. § 17-4-62. U.S.C.A. 4.
Manuel v. City of loliet. 137 S.Ct 911 (2017). Manuel v. City
of Toliet. Illinois. 903 F.3d 667 (2018).

24
Petitioner had stated in many times in his pleadings
that he filed motion for probable cause hearing in the
Paulding County Probate Court and Paulding County
Superior Court. Additionally, he filed Petition for Writ of
Habeas Corpus concerning his illegal pre-trial detention in
the same Rome Court in front of the same Judge.
Respondents were notified and served with all copies
served in the Federal District Court. Respondents were
notified multiple times that they were violating Plaintiffs
4th Amendment Rights. Yet, they intentionally continued
to do so.
The police Respondents herein chose to usurp
unlawful authority not granted to them by the State of
Georgia. Hence, they cannot benefit from being cloaked
with State immunity, along with the State, for actions not
authorized and endorsed by the State of Georgia. It would
never be within Constitutional Character for the State of
Georgia to deny a U.S. citizen his or her 4th Amendment
Rights. Clearly, the Respondents intentionally violated
Georgia Law and Federal Constitutional Law. Hence, they
should not be allowed to be cloaked in State Eleventh
Amendment immunity.
While state law supplies limitations period for
pretrial detainees' § 1983 actions alleging that unlawful
pretrial detention beyond start of legal process violates the
Fourth Amendment, Federal Law defines when the claim
accrues for limitations purposes. U.S. Const Amend. 4; 42
U.S.C.A. § 1983. Manuel v. City of loliet. 137 S.Ct 911
(2017). Manuel v. City of Joliet. Illinois. 903 F.3d 667
(2018).
In every case of an arrest without a warrant, the
person arresting shall, without delay, convey the offender
before the most convenient judicial officer authorized to
receive an affidavit and issue a warrant... No such
imprisonment shall be legal beyond a reasonable time
allowed for this purpose; and any person who is not

25
brought before such judicial officer within 48 hours of
arrest shall be released. O.C.G.A. § 17-4-62.
In additional to the discrete state function
previously mentioned, this case at bar presents issues that
are not consistent with Federal Constitutional character to
extend sovereign immunity. An individual who is arrested
without a warrant is entitled to have a judicial officer make
a determination of probable cause within a prompt period
after the arrest; if prompt judicial determination of
probable cause is not made, then an extended deprivation
of liberty following a warrantless arrest constitutes
deprivation of liberty without due process of law. U.S.C.A.
5,14. Please see Lambert v McFarland. 612 F.Supp. 1252,
United States District Court, N.D. Georgia, Atlanta Division
(1985] citing Gerstein vs. Pugh. 420 U.S. 103 [95 S.Ct. 854,
43 L.Ed.2d 54] (1975).
Government bodies which are not protected by
Eleventh Amendment immunity may be sued under § 1983
in state court, even if state laws would purport to extend
sovereign immunity to all government bodies within the
state. Howlett By and Through Howlett v. Rose. 496 U.S.
356,110 S. Ct 2430,110 L. Ed. 2d 332,60 Ed. Law Rep. 358
(1990).
The Federal Civil Rights Acts, 42 U.S.C.A. §§ 19811988, provide the statutory basis for federal police abuse
actions against state or local police officers. Of these
statutes, § 1983 (the Civil Rights Act of 1871) is the most
frequently invoked, particularly since the decision in
Monroe v. Pape. 365 U.S. 167,81S. CL 473,5 L. Ed. 2d 492
(1961).
42 U.S.C.A. § 1983 provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any state or
territory or the District of Columbia, subjects, or causes to
be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation of

26
any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured
in an action at law, suit in equity, or other proper
proceeding for redress. In Monroe, the Court identified
three main purposes envisioned by the Congress that
enacted the statute: (1) "to override certain kinds of state
laws"; [2) to provide "a remedy where state law was
inadequate"; and (3) to provide "a federal remedy where
the state remedy, though adequate in theory, was not
available in practice." Monroe. 365 U.S. at 172-83.
The Supreme Court has set forth an expansive
construction of § 1983, emphasizing the intention of
Congress to create a broad federal remedy for violations of
constitutional rights. The Court held that action "under
color of' state law was not confined to action authorized
by state law, but could include conduct of government
officials that was contraiy to state law. Furthermore, the
Court made clear that the availability of a state remedy did
not affect a plaintiffs right to seek redress in the first
instance in federal court under § 1983. Monroe. 365 U.S.
at 180.
No person shall "be deprived of life, liberty, or
property, without due process of law". U.S.C.A. 5. In Suits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved. U.S.C.A 7. No state shall "deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws". U.S.C.A. 14. Pleadings must be
construed so as to do justice. Federal Rule of Civil
Procedure 8(e) CONSTRUING PLEADINGS.
Due Process afforded by Georgia Statutory and
Constitutional Law involved herein is enumerated as
follows in the next two paragraphs. All pleadings shall be
so construed as to do substantial justice. O.C.G.A. 9-11-8
(f) Construction of pleadings. "No person shall be deprived

27
of life, liberty, or property except by due process of law."
Article 1, § 1, f I- Life, liberty, and property: Constitution
of the State of Georgia. "Protection to person and property
is the paramount duty of government and shall be
impartial and complete. No person shall be denied the
equal protection of the laws.” Article 1, § 1, f IIConstitution of the State of Georgia.
"The right to trial by jury shall remain inviolate”.
Article 1, § 1, If XI- Right to Trial by Jury: Constitution of
the State of Georgia. "No person shall be deprived of the
right to prosecute or defend, either in person or by an
attorney, that person's own cause in any of the courts of
this state." Article 1 § 1, 1f XII- Right to the Courts:
Constitution of the State of Georgia.
4. Whether, in current times of electronic filings
and easy access to Court Records, a Court/Judge
can refuse to take Judicial Notice of its/his own
Court records of a recent case over which the
same Judge recently presided to justify the
harsh dismissal of a pro se Plaintiffs Right to
Jury Trial.
"The purpose of modern pleading is
to facilitate determination of the truth... Our
CPA is patterned after the Federal Rules...
"The Federal Rules reject the approach that
pleading is a game of skill in which one
misstep by counsel may be decisive to the
outcome and accept the principle that the
purpose of a pleading is to facilitate a proper
decision on the merits.”... All pleadings shall
be so construed as to do substantial justice...
Rule 15 is one of the most important of the
rules that deal with pleadings. It re­
emphasizes and assists in attaining the

i

;

28
objective of the rules on pleadings: that
pleadings are not an end in themselves, but
are only a means to the proper presentation
of a case; that at all times they are to assist,
not deter, the disposition of litigation on the
merits. McDonough Const Co. v. McLendon
Elec. Co.. 242 Ga. 510,250 S.E.2d 424 (1978).
O.C.G.A. 9-11-8 (f).
As Thomas Jefferson explained, "that
[w]e all know that permanent judges
acquire an esprit de corps; that, being
known, they are liable to be tempted by
bribery; that they are misled by favor, by
relationship, by a spirit of party, by a
devotion to the executive or legislative; that
it is better to leave a cause to the decision of
cross and pile than to that of a judge biased
to one side; and that the opinion of twelve
honest jurymen gives still a better hope of
right than cross and pile does." Wikipedia.
Quoting Thomas Jefferson, "I consider trial by
jury as the only anchor yet devised by man, by which a
government can be held to the principles of its
constitution."
The Trial Judge in this case was also Petitioner’s
Habeas Corpus Judge concerning these same issues in the
same District Court of Rome. This Judge was well aware of
what was transpiring at the Paulding County Jail when
Petitioner sought Habeas Corpus Relief in his Federal
Courtroom. Additionally, the Respondents were involved
in what was happening at the Paulding County Jail.
Petitioner served copies on the Respondents of everything
he filed in the Habeas Court after his Petition was
docketed. Additionally, Respondents were required to

29
respond to Petitioner’s filings in the Habeas/Trial Court.
This concept that neither the judge or the Respondents
were presented with evidence of what happened in the
Paulding County is patently false.
It would have only taken the Judge 10 seconds to
type the case number Petitioner provided in his computer
to refresh his memory. Petitioner also informed this same
Judge about his Rights to a Judicial hearing verifying
probable cause for his arrest during the Habeas Corpus
proceedings, and he did nothing. These Federal Court
Pleadings, in the same District Court, were clear evidence
of Petitioner clearly notifying everyone of what his Rights
were to the Judicial verification of probable cause for his
arrest and pre-trial detention.
The Trial Judges’ actions herein to dismiss this pro
se litigant's claims were extreme. If he did not want to take
the ten seconds to punch the case number in his computer,
all that he had to do was inform Petitioner of such, and
Petitioner would have gladly printed the voluminous
copies filed in that case and dropped them off on his desk.
A more appropriate measure would have been for the
Judge to order Petitioner to make copies of the records
instead denying the request to Judicially Notice the record
and dismissing Petitioner's claims altogether. This was not
fair at all!
Plaintiffs First Amendment and other Claims are
clearly documented in the Trial Court’s pleadings and in
the Habeas Corpus action filed by Plaintiff in the same
Court Plaintiff humbly asks that this Honorable Court take
judicial notice of and review case # 4:16-cv-57-HLM, a
Habeas Corpus action filed by Plaintiff in the District Court,
which presents plenty of evidence on record to withstand
these Defendant's first motions for summary judgment
and to dismiss. R.14, AP 65-66.
Specifically, Plaintiff requested that the Court
review, in detail, his Brief in Support of Petition for Writ of

30
Habeas Corpus filed in said case in that Court on August 1st
2016 as document # 27. This document lists in detail the
Constitutional violations of the Defendants while they
imprisoned Plaintiff pre-trial for over six months (a
misdemeanor charge that would later be dismissed).
Herein, Plaintiff was imprisoned administratively
and pre-emptively to jury trials. He needlessly spent over
six months in jail pre-trial, thereby missing his daughter’s
high school graduation and losing his business, along with
nearly everything he had. This is wrong. In this country,
one is supposed to be innocent until proven guilty, not vice
versa. Probable Cause verification by judicial officers is a
sacred right that cannot be foregone.
"The primary purpose of the Trial by Jury in
America was to protect the public from corrupt or
aristocratic judges: The impartial administration of
justice, which secures both our persons and our
properties, is the great end of civil society." Senator
Richard Hemy Lee quoted.
5. Whether a Court can demand highly strict
adherence to rules and Court procedure so as to
harshly dismiss a pauper pro se's (with no
formal law education) complaint for minor
deficiencies, rather than first taking less
extreme measures such as requiring the pro se
litigant to re-file the pleadings to conform to the
Court's strict compliance policy.
"The purpose of modern pleading is to
facilitate determination of the truth... Our
CPA is patterned after the Federal Rules...
"The Federal Rules reject the approach that
pleading is a game of skill in which one
misstep by counsel may be decisive to the
outcome and accept the principle that the

31
purpose of a pleading is to facilitate a proper
decision on the merits.”... All pleadings shall
be so construed as to do substantial justice...
Rule 15 is one of the most important of the
rules that deal with pleadings. It re­
emphasizes and assists in attaining the
objective of the rules on pleadings: that
pleadings are not an end in themselves, but
are only a means to the proper presentation
of a case; that at all times they are to assist,
not deter, the disposition of litigation on the
merits. McDonough Const Co. v. McLendon
Elec. Co.. 242 Ga. 510,250 S.E.2d 424 (1978).
O.C.G.A. 9-11-8 (f).
No person shall "be deprived of life, liberty, or
property, without due process of law". U.S.C.A. 5. InSuits
at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved. U.S.C.A 7. No state shall "deprive any person of
life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws". U.S.C.A. 14. Pleadings must be
construed so as to do justice. Federal Rule of Civil
Procedure 8(e) CONSTRUING PLEADINGS.
Due Process afforded by Georgia Statutory and
Constitutional Law involved herein is enumerated as
follows in the next two paragraphs. All pleadings shall be
so construed as to do substantial justice. O.C.G.A. 9-11-8
(f) Construction of pleadings. "No person shall be deprived
of life, liberty, or property except by due process of law."
Article 1, § 1, % I- Life, liberty, and property: Constitution
of the State of Georgia. "Protection to person and property
is the paramount duty of government and shall be
impartial and complete. No person shall be denied the

32
equal protection of the laws." Article 1, § 1, If IIConstitution of the State of Georgia.
"The right to trial by jury shall remain inviolate".
Article 1, § 1,XI- Right to Trial by Jury: Constitution of
the State of Georgia. "No person shall be deprived of the
right to prosecute or defend, either in person or by an
attorney, that person's own cause in any of the courts of
this state." Article 1 § 1,
XII- Right to the Courts:
Constitution of the State of Georgia.
The Trial Court's dismissal of Petitioner’s
Complaint simply because he did not strictly follow one of
its Local Rules was too extreme. Petitioner failed to cite
the record but did dispute nearly all of the Defendants’
statement of material facts. So, the Trial Court accepted all
of the Defendants’ material facts asserted as true and
ignored all of this Plaintiffs denials of such.
The authority cited by the Trial Court supporting
this extreme measure is not analogous to this case at bar.
Therein the pro se plaintiffs asserted facts were accepted
by the Court even though the plaintiff did not comply with
a local rule. That Trial Court did not dismiss that plaintiffs
complaint because she failed to follow a local rule, but,
instead, analyzed the facts she asserted improperly to
determine that the new evidence she presented
improperly did not rise a level supporting her claims. Moss
v. City of Atlanta Fire Dep't. Civil Action File No. 1:14-CV014-WSD-AJB, 2016 WL 5539682, at *4 (N.D. Ga. Apr. 26,
2016).
It would have been more appropriate for the Trial
Court herein to require this pro se Plaintiff, with very little
litigation experience and no formal legal education, to re­
file his pleading so that it complied with the Court's Local
Rule. Dismissing an individual's Right to Jury Trial because
of a minor violation of a Court Rule is a measure too
extreme to take and is unconstitutional. While it is true
that pro se litigants are required to comply with

33
procedural rules, a Judge is not required to dismiss a pro
se plaintiffs Complaint when he fails to do so.

CONCLUSION
Accordingly, the Petition for a Writ of Certiorari
should be granted.
Respectfully submitted,
William Johnson
Pro Se Petitioner
4783 Burford Court
Acworth, GA 30102
(404)488-9168
billacerebecca@gmail.com

